I N T H E S U P R E M E C O U R T O F T H E U NI T E D S T A T E S

T O R R E S, C A R L O S
P etiti o n er
vs.

N o:

2 0- 7 4 3 0

US A
W AI V E R
T h e G o v er n m e nt h er e b y w ai v es its ri g ht t o fil e a r es p o ns e t o t h e p etiti o n i n t his c as e,
u nl ess r e q u est e d t o d o s o b y t h e C o urt.

E LI Z A B E T H B. P R E L O G A R
A cti n g S oli cit or G e n er al
C o u ns el of R e c or d
M ar c h 1 5, 2 0 2 1
c c:
JERE M Y R Y A N M O ORE
A S SI S T A N T F E D E R A L P U B LI C
DEFE N DE R
407 W ES T C O N G R ESS S T R E E T
S UI T E 5 0 1
T U C S O N, A Z 8 5 7 0 1

